Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141

STATE OF NEW YORK,

SS:

81606

AFFIDAVIT OF SERVICE

COUNTY OF NEW YORK
Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 7th day of February 2020 deponent served 3 copies of the within
BRIEF FOR AMICI CURIAEPROFESSORS RALPH BRUBAKER. RONALD J. MANN,
CHARLES W. MOONEY, JR., THOMAS E. PLANK AND CHARLES J. TABB
IN SUPPORT OF PETITIONER

upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Craig Goldblatt
Counsel of Record
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Avenue, NW
Washington, DC 20006
(202) 663-6000
craig.goldblatt@wilmerhale.com

Eugene R. Wedoff
Counsel of Record
144 N. Elmwood Avenue
Oak Park, IL 60302
(312) 285-5849
erwedoff@me.com
Attorneys for Respondents

Attorneys for Petitioner

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on February 7, 2020, pursuant to Supreme
Court Rule 29.5[c]. All parties required to be served, have been served.

,d~~ ![)~,
Howard Daniels

Sworn to me this

February 7, 2020
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366
Qualified in Kings County
Commission Expires November 10, 2023

Case Name: City of Chicago, Illinois v. Robbin L.
Fulton

Docket No. 19-3 57

